Roadside Dispatch is a pay-per-use roadside assistance program. The program provides you with
security and convenience wherever your travels take you. No membership or pre-enrollment is required.
No annual dues. No limit on usage. For a set price per service call, the program provides:
• Standard Towing – Up to 5 miles included1
• Tire Changing – must have good, inflated spare
• Jump Starting
• Lockout Service (no key replacement)
• Fuel Delivery – up to 5 gallons (plus the cost of fuel)
• Standard Winching
Roadside Dispatch will ask you where you are, what the problem is, and while we remain on the phone
we will arrange a dispatch to a reliable tow operator or locksmith to provide help. (If you feel you are in
an unsafe location – we will advise you to hang up and dial 911. If you are not able to dial 911, we will
call the non-emergency police number in your area, and will remain on the phone with you at your
request until the police arrive.) You have the convenience of one toll-free phone and you may save
money because our rates are pre-negotiated.
Dependable roadside assistance, 24 hours a day, 7 days a week has never been easier. No membership
or pre-enrollment is required. Just call us toll free when you need us.
1-800-847-2869 – it’s that easy!
Note: Current fee for a standard service call is $69.95. Customers must pay service provider for
mileage over 5 miles. A secondary unit being towed behind is not included but can be accommodated
for an additional fee. Standard Winching applies within 100 feet of paved or county maintained road
only. Additional fees may apply for winching services under certain circumstances. Service call fees are
subject to change at any time; however callers will be notified of pricing prior to any service dispatch.
This program may be discontinued at any time without prior notice. Program void where prohibited.
1

Any vehicle with wheels is covered under the program as long as it can be classified as ‘Light Duty’.
‘Light Duty’ vehicles are vehicles that weigh 10,000 lbs. or less. Vehicles weighing more than 10,000 lbs.
are considered ‘Medium Duty’ or ‘Heavy Duty’ and are NOT covered under this program.

1|Page

Additional Terms: Service providers supplying emergency roadside assistance and towing are
independent contractors and are solely liable for their services. Neither Visa nor 5Point Credit Union
shall have any responsibility or liability in connection with the rendering of the service. Emergency
roadside assistance and towing may not be available in areas not regularly traveled, nor in other “off
road” areas not accessible by ordinary towing vehicles. Weather conditions, time of day, and availability
of service may affect assistance responses. Expectations for dispatch are set with the customer on every
call, and an expected estimated time of arrival is provided to the customer regardless of their location;
however, neither Visa nor 5Point Credit Union provides any assurances as to the ability of the Service
Provider to meet such estimates. You are responsible for any roadside assistance or towing charges
incurred by facilities responding to your request even if you are not with your vehicle or your vehicle is
gone upon their arrival. Services provided by United States Auto Club, Motoring Division, Inc

2|Page

•
•
•
•
•
•
•

3|Page

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

•
•
4|Page

•
•
•
•

•
•
•

•
•

5|Page

•
•
•

•

•

•

•

•

6|Page

7|Page

